 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-7266

Kevin L. Martin y, Cathleen Capron, et al.
(Petitioner) (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

{@ Please enter my appearance as Counsel of Record for all respondents.

Ci There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

signature__Alanon CY Cagle fay
Date: arch 10, 2024

(Type or print) Name Aaron T. Craft
Oy. OMs. Ors. QC Miss

Firm_Office of the Attorney General

 

Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone_317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kevin L. Martin DOC #169789
Westville Correctional Facility 5501 South 1100 West
Westville, IN 46391
